                FOLLOW-UP REVIEW OF DOCUMENT IMAGING

           RAILROAD UNEMPLOYMENT INSURANCE ACT PROGRAMS

                      Report No. 02-09, August 8, 2002


                                    INTRODUCTION


This report represents the results of the Office of Inspector General’s (OIG) review of
the Railroad Retirement Board’s (RRB) document imaging initiative for Railroad
Unemployment Insurance Act (RUIA) Programs.

Background

The RRB’s mission is to administer retirement/survivor and unemployment/sickness
insurance benefit programs for railroad workers and their families. During fiscal year
2001, the RRB paid approximately $8.4 billion in railroad retirement and survivor
benefits to about 700,000 beneficiaries. The RRB also paid unemployment and
sickness insurance benefits of $95 million to some 40,000 claimants.

The RUIA document imaging program substitutes electronic images stored on magnetic
media for the paper documents that have historically been maintained as support for
decisions on applications and other decisions related to benefit payment adjudication.
This computer-based technology is intended to enhance efficiency and effectiveness of
operations by increasing the accessibility of the documentary evidence that is required
for claims adjudication.

The RRB has used document imaging to retain sickness insurance applications and
beneficiary tax statements since the early 1990s. In June 1999, the RRB replaced the
original obsolete system with more modern technology. In March 2000, the RRB
completed expansion of the system to allow wider access to selected information within
the agency.

The document imaging processing consists of:

      •   Scanning the original paper document into the system;
      •	 entering indexing data to permit future retrieval of the image and to link the
         new image to related images using a common identifier;
      •   retaining the original paper document according to law and regulation;
      •	 retrieving paper documents if they are requested during the mandatory
         retention period; and
      •	 destroying the original paper documents after the expiration of the applicable
         retention period.




                                            1

In November 2000, the OIG reported that the RRB needed to strengthen controls to
ensure the reliability of the RUIA document imaging system. 1 During that review, the
OIG observed illegible, incomplete images on the system; inaccurate indexing; and
inadequate procedures for the retention of original paper documents. We also identified
paper documents that had never been scanned into the system. At that time, we made
17 recommendations to improve the reliability of imaged documents and reduce the risk
of the improper destruction of paper documents. The RRB has completed corrective
actions for 16 of the 17 recommendations.

In its Strategic Plan for fiscal years 2000-2005, the RRB included an objective to
“design and implement information technology initiatives that fundamentally improve our
efficiency and effectiveness in achieving the agency’s mission.” This review of
document imaging supports that objective.

Objective, Scope and Methodology

The objective of this review was to determine whether:

          1.	 the RUIA document imaging system contains complete, legible electronic
              facsimiles of the scanned documents; and

          2.	 the original paper documents had been retained in accordance with
              applicable laws and regulations.

The scope of this review was limited to documents scanned into the RUIA imaging
system during September through November 2001. We also limited our study of policy,
procedure and internal control to those matters applicable to discrepancies observed
during our detailed tests.

To accomplish this objective we performed tests, on a sample basis, of the
completeness and legibility of the scanned images. We also tested the accuracy of
decisions related to retention of original paper documents. The sampling methodology
and results are presented in detail in Appendix I to this report.

For purposes of this review, we classified the various errors identified as either “high-
risk” or “low-risk.” High-risk errors are those affecting any of the following: case
adjudication, management reporting, or the image retrieval (e.g. wrong social security
number or name). Low-risk errors are any discrepancies between the paper document
and the image that does not constitute a high-risk error. Only high-risk errors were
considered in assessing the need for corrective action.

This audit was conducted in accordance with generally accepted government auditing
standards as applicable to the objectives. Fieldwork was conducted at the RRB
headquarters office in Chicago, Illinois from December 2001 through May 2002.

1
    OIG Audit Report No. 01-01, “Review of Document Imaging RUIA Programs,” November 17, 2000


                                                  2

                                      RESULTS OF REVIEW


Our review of documents scanned into the RUIA document imaging system indicates
that controls are adequate to ensure that paper documents are scanned into the RUIA
imaging system and that the scanned images have been properly indexed to permit
future retrieval. However, controls are not adequate to ensure that the images resident
on the system are complete and legible, and that original paper input documents are
properly retained and can be retrieved if needed.

The control weaknesses identified during this review were brought to management’s
attention in the OIG’s previous report on RUIA document imaging. The Office of
Programs’ planned corrective actions have been completed but were not sufficient to
fully eliminate the problems.

The details of our findings and recommendations follow.

Incomplete and Illegible Images

The documents on the imaging system are not always legible and complete. We
conducted three tests of completeness and legibility. In general, our audit tests indicate
that the occurrence rate of incomplete or illegible images generally exceeds acceptable
levels. The details our tests are summarized below.

                                                                            Incomplete/ Illegible Document
        Type         Documents     Retention    Process Period     Sample     Sample #         % Reviewed

    Random                16,740   Long-term    9/2001 – 11/2001      595              30             5.0%



    Random                 5,337   Long-Term        9/2001            549                9            1.6%



    100% Review             482    Short-Term      10/ 2001           480              25             5.2%



Federal regulations require the preservation of complete records. 2 Because the RRB
uses the RUIA document imaging system as the official record copy, the images in the
system must contain all information on the original paper document. A document may
be comprised of multiple pages, with information on both the front and back.

Current procedure is not adequate to ensure that all pages of a multi-page document
are scanned and that all scanned pages are legible. Although current procedure clearly
requires that the person scanning the documents should review the resulting image for
any needed corrections, it does not specifically state that this review include a
comparison of the paper document to the image. It is impossible to detect missing
pages without such a comparison. In addition, some staff responsible for scanning

2
    36 CFR 1222.50


                                                    3

images erroneously believed that document pages containing only a date stamp could
properly be omitted from the imaging system. Although management had been
previously advised of this misunderstanding, operating procedures were not updated.

Missing information can lead to faulty adjudicative decisions. Also, It may be difficult to
use records from the imaging system as evidence in a court of law because of reliability
and completeness deficiencies. Finally, the agency cannot accurately track the
timeliness of its processing for the customer service plan if the mailroom and field office
date stamps are missing from the imaged document.

Recommendations

The Office of Programs should:

   •	 revise the review section of the scanning procedures to emphasize that all pages
      of the paper input documents with date stamps should be scanned and
      maintained on the imaging system (Recommendation #1); and

   •	 revise existing procedures to specifically require a comparison of the paper
      document to the scanned image (Recommendation #2).

Management’s Response

The Office of Programs concurs with both recommendations and has already updated
the applicable quality control procedures for the unit scanning the documents. A
complete copy of the response, without attachments, is included in Attachment I.

OIG Comments

The review section of the agency’s online scanning procedures has been updated to
specifically require a comparison with the paper document but an emphasis on date
stamps has not been added. The revision to the quality control procedures satisfies the
intent of recommendation #1.

Incorrect Retention Periods for Original Paper Documents

Current controls are not adequate to ensure that original paper input documents are
retained for the mandated period.

The RRB’s Records Disposition Authority, as approved by the National Archives and
Records Administration, provides that certain documents and any attached
correspondence should be retained for six years and three months (long-term retention)
after the close of the benefit year. Documents not specifically designated for long-term
retention may be destroyed after 60 days (short-term retention).




                                             4

We examined 482 original paper documents that had been scanned into the RUIA
imaging system during October 2001 and, having been designated for short-term
retention, were now awaiting destruction. Approximately 2% of the documents
examined had been incorrectly scheduled for short-term, rather than long-term,
retention.

Although some of the document retention errors identified during our review were the
result of inadequate training and incomplete procedures, some errors could be
attributed only to human error.

During the audit, management advised the OIG that, prior to destruction, each batch of
documents is examined to prevent the improper destruction of documents that should
have been retained. We were advised that the documents selected for our review had
not yet been subject to this control. This control has not been formally documented in
the agency’s published procedures.

Federal regulation prohibits removal or destruction of any record in Federal custody
except as provided for in the approved disposition authority. 3 Each agency head is
required to establish safeguards against the loss of records.4 The RRB will be in
violation of Federal regulations if it destroys the sickness applications and other
designated documents prior to the expiration of the six year, three month retention
period. Forensic evidence will be lost if these documents are improperly destroyed.

Recommendations

The Office of Programs should:

      •	 train all staff in RRB units that handle paper documents on the applicable
         procedures for document retention (Recommendation #3);
      •	 revise the procedures for handling paper documents to clarify that the designated
         forms and all copies should be retained for six years, three months.
         (Recommendation #4); and
      •	 formalize procedures for the 100% pre-destruction review of documents
         (Recommendation #5).

Management’s Response

The Office of Programs concurs with all three recommendations and has already
completed the necessary training and procedure revisions. A complete copy of the
response, without attachments, is included in Attachment I.




3
    36 CFR 1228.100
4
    44 U.S.C. 3105


                                              5

Retrieval of Original Paper Documents

Our review indicates that approximately 2% of original paper input documents
scheduled for long-term retention could not be retrieved directly from the proper filing
location.

The date that a document is scanned is captured by the imaging system. The original
paper documents are then filed by the date that they were scanned into the system.
Within filing date, documents are grouped by the type of form but not by any sequential
identifier. As previously discussed, guidelines for the retention of documents and
penalties for improper removal or destruction are established in Federal regulation.

During the review, we traced a random sample of 600 document images to the
supporting paper input documents. Each of the related 600 paper input documents
should have been scheduled for long-term retention and filed accordingly. The
supporting paper input documents for 11 of the 600 sample images, approximately 2%,
could not be located among other documents scanned on that date.

If a paper document had not been properly filed among the other documents scanned
on that date, we searched among documents scanned the day before and the day after.
The high volume of documents and the absence of sequential identifiers make a wider
search impractical. Six of the 11 missing documents were ultimately located among
those scanned a day earlier or a day later. However, five documents could not be
located within those search parameters and, we could not verify that they had been
retained.

We did not determine a specific cause for the inaccurate filing of paper documents.
However, we did observe that current quality control procedures do not include an
image-to-paper test of filing accuracy that would disclose unacceptable error levels and
assist management in minimizing the number of missing or lost paper documents.

Under the current filing system, searching for improperly filed documents is inefficient
and labor intensive. In addition, proper filing is closely related to proper retention.
Documents that cannot be retrieved have not been properly retained.

Recommendation

The Office of Programs should include an image-to-paper test of compliance with filing
and retention guidelines as part of its ongoing quality control procedures
(Recommendation #6).

Management’s Response

The Office of Programs concurs with this recommendation and has already updated the
quality control procedures. A complete copy of the response, without attachments, is
included in Attachment I.



                                             6

                                                                                                                                        APPENDIX I


SAMPLING METHODOLOGY
                                                                                        TEST #1                  TEST #2                  TEST #3
Type Of Comparison                                                                  Paper-to-Image            Paper-to-Image           Image-to-Paper
                                                                                                                                    September –November
Performed Period                                                                     October 2001            September 2001
                                                                                                                                           2001

Type Of Paper Document                                                           Short-Term Retention       Long-Term Retention     Long-Term Retention

Selection Source                                                                   Paper Documents           Paper Documents         Imaged Documents

Number of Documents in the Population                                                     482                     5,337                    16,740

Sample Section Method                                                                100% Review             Random Selection         Random Selection

Sample Size                                                                               482                         550                     600


AUDIT EXCEPTIONS                                                                 Number Occurrence Number Occurrence Number Occurrence
The original paper document could not be matched to an image on the system.              2          0.41%         1         0.18%      Not Applicable

The original paper document was improperly scheduled for short-term retention           10          2.07%     Not Applicable           Not Applicable

The original paper document was filed incorrectly.                                     Not Tested                 5         .91%         11           1.83%

The scanned image was illegible or incomplete.                                          25          5.21%         9         1.64%        30           5.04%

The indexing information was incomplete or inaccurate.                                   1          0.21%         2         0.36%         1           .17%


Note: The Occurrence Rate was calculated by dividing the number of audit exceptions by the sample size. When missing documents or images
prevented testing of all sample items, the sample size was reduced for any missing documents or images that could not be examined. That lower
number was 480, 549 and 595 for Tests #1, #2 and #3 respectively.
Test #1 did not include a review of filing accuracy because the documents in Test #1 fall under the short-term retention schedule, and as such, are
destroyed 60 days after scanning. Accordingly, we did not consider filing accuracy a high-risk issue.
